IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

TYRONE VALENTINE,
On Petition for Writ of

Certiorari to the United

)

)
Petitioner, )

)

vs. ) States Court of Appeals

)

)

)

)

for the Eighth Circuit
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF FILING
State of Missouri )
)Ss
City of St. Louis)
Comes now Kevin C. Curran, being first duly sworn upon his oath, deposes
and states:
1. Tam an attorney of record for Petitioner.
2. On this 25th day of February 2021, I filed Petitioner's Petition for a
Writ of Certiorari plus its Appendix, Motion to Proceed In Forma Pauperis, Entry
of Appearance, Affidavit of Filing, plus this Proof of Service, with the Supreme
Court of the United States by depositing an envelope containing these documents
with a third-party commercial carrier for delivery within three days to:
Supreme Court of the United States

1 First Street N.E.
Washington, DC 20543
Further affiant sayeth not.

Respectfully submitted,

Ore 0g3g2— —

KEVIN C. CURRAN

Assistant Federal Public Defender

1010 Market, Suite 200

St. Louis, MO. 63101

(314) 241-1255

Fax: (314) 421-3177

ATTORNEY FOR PETITIONER

  

SUBSCRIBED AND SWORN TO before me this yath day of February 2021

PrDerD Lf Doss ps

NOTARY PUBLIC

My commission expires:

 
